           U.S. Department of
                                                                      Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Management Advisory on Weaknesses                                           Date:   August 14, 2014
           With Site-Specific Deployment Requirements and
           Specialist Training for STARS

  From:    Matthew E. Hampton                                                               Reply to
                                                                                            Attn of:   JA-10
           Assistant Inspector General for
            Aviation Audits

    To:    Federal Aviation Administrator

           To support the Next Generation Air Transportation System (NextGen) goal to enhance
           air traffic capacity and reduce delays, the Federal Aviation Administration (FAA) is
           deploying the Standard Terminal Automation Replacement System (STARS) to
           modernize the automation systems that controllers rely on to manage air traffic. As
           part of its plan to implement STARS as the single automation platform throughout the
           National Airspace System, FAA is currently working to install STARS at 11 large
           terminal facilities for $438 million. In May 2013, we reported that STARS was at
           significant risk of cost and schedule overruns and that the system could ultimately fall
           short of providing promised capabilities for controlling takeoffs and landings—the
           most critical phases of flight. 1 Despite acknowledging these risks, FAA continued the
           inaugural deployment of STARS at the Dallas/Fort Worth (DFW) Terminal Radar
           Approach Control (TRACON) facility.

           Following the issuance of our report, we conducted an in-depth review of a hotline
           complaint we received regarding STARS deployment at the DFW TRACON. This
           review prompted us to look further into FAA’s progress implementing the program.
           As a result of this examination, we determined that the risks we identified in our
           earlier report remain—risks that warrant your attention. Notably, FAA has yet to
           stabilize STARS software requirements—a recommendation we made in our 2013
           report. While FAA planned to stabilize requirements at all 11 sites by June 2014, it
           has now extended this date to September 2014. Further, FAA has not determined the
           site-specific capabilities needed or when they will be implemented. Until
           requirements are stabilized, full deployment of STARS at DFW and TRACONs
           1
             FAA’s Acquisition Strategy for Terminal Modernization Is at Risk for Cost Increases, Schedule Delays, and Performance
           Shortfalls (OIG Report No. AV-2013-097), May 29, 2013. OIG reports are available on our Web site at
           http://www.oig.dot.gov/.
                                                                                      2

nationwide will continue to be at risk of cost and schedule overruns. Because STARS
is on the critical path to introducing NextGen capabilities, these risks also impact the
long-term viability of NextGen.

Questions about the adequacy of FAA’s training and certification of technical
operations specialists raise additional concerns about the Agency’s management of
STARS deployment. The complainant asserted that FAA did not properly certify
DFW TRACON’s technical operations specialists on the STARS system because
FAA did not offer a site-familiarization package as part of the training to its
specialists prior to certifying them. According to FAA, site familiarization training is
not a required part of the STARS training program. However, site familiarization
training is important because DFW TRACON and the other remaining sites have
unique characteristics that impact the use of the STARS system to help controllers
manage air traffic.

BACKGROUND
In the mid 1990s, FAA launched a series of efforts to increase capacity and modernize
and standardize terminal systems for managing air traffic within a 50-mile radius of
airports.

• In 1996, FAA awarded a $953 million contract to develop and deploy STARS at
  172 TRACON facilities and towers.

• From 1998 to 2003, after cost overruns and delays with the STARS contract, FAA
  developed and deployed the Common Automated Radar Terminal System
  (CARTS), an interim solution, for an estimated $239 million.

• From 2004 to 2008, FAA initiated a new three-phased approach to terminal
  modernization. The first two phases deployed STARS at 52 sites and upgraded
  CARTS at four sites—at a cost of $1.4 billion.

• In 2010, FAA began the current and final phase of its terminal modernization
  efforts, which plans to replace CARTS with STARS at 11 large TRACONs,
  including 7 of the largest and busiest in the Nation, by 2017.

• In December 2011, FAA approved $438 million through 2015 to deploy STARS
  at the 11 TRACONs. FAA also plans to deploy STARS at 97 small sites, with an
  additional cost of $462 million through 2019.

Our May 2013 report raised concerns about the reliability of FAA’s cost and schedule
for its current terminal modernization effort. We also reported that STARS
deployment was at risk for performance shortfalls due to a lack of stable requirements.
                                                                                                                           3

Accordingly, we recommended that FAA develop specific, pertinent, and focused
requirements for transitioning to STARS.

FAA HAS NOT STABILIZED STARS SOFTWARE REQUIREMENTS
According to FAA, DFW TRACON achieved initial operating capability (IOC) 2 for
STARS on April 3, 2013, and is operating the system continuously with CARTS used
only in a backup capacity. However, software requirements remain unstable, and
during deployment, FAA identified 46 additional requirements that will be needed to
ensure STARS provides at least the same capabilities as CARTS at this site. FAA also
determined that meeting the unique needs of the other 10 sites requires more
enhancements or modifications than originally planned. According to FAA, it is
revisiting its process to identify, stabilize, and track each TRACON’s unique STARS
requirements. Although the Agency originally planned to establish firm requirements
by June 2014, it is now planned for September 2014.

Stabilizing STARS requirements has been a longstanding problem. In 2011, FAA
conducted a detailed analysis that compared STARS with CARTS in an attempt to
nail down the requirements. At that time, FAA identified a total of 68 requirements
needed to ensure that STARS met or exceeded CARTS’s capability at DFW
TRACON. However, since this initial analysis, the number of requirements has
increased. Specifically, FAA’s risk mitigation tests of STARS software indicates that
as of February 2014, 114 requirements are now needed—including the 46 that FAA
identified during initial deployment.

Consequently, the STARS deployment incorporates fewer capabilities than the
CARTS system it aims to replace. According to FAA, the Agency collaborated with
air traffic managers and controllers (including the National Air Traffic Controllers
Association) at DFW TRACON to ensure the first deployment contained the most
critical software functions for continuous operations. However, at least one more
software upgrade is scheduled for August 2014 and contains numerous capabilities
needed at DFW TRACON 3—including an Automated Terminal Proximity Alert
capability, an additional safety aid to alert controllers of loss of separation between
aircraft.

The uncertainty at DFW TRACON has a cascading effect on the other 10 sites. For
example, the additional STARS requirements indicated that the Northern California
TRACON (NCT)—which was slated as the second STARS deployment site—would
need more requirements than originally projected. The site was already a deployment
challenge because of its 25 associated remote towers, the most in the National
Airspace System. As a result, FAA decided to deploy STARS at NCT later in its
2
  Initial Operating Capability (IOC) is the milestone in which controllers begin to use the system on a limited basis to
manage traffic.
3
  FAA originally planned to deploy STARS at DFW TRACON in two software builds, but revised it to three in 2013.
                                                                                                                4

schedule and to move up deployment at the Denver TRACON, which has fewer
STARS requirements.

Ultimately, the risk of significant cost and schedule overruns remains. Through fiscal
year 2013, FAA spent nearly $338 million of the $438 million approved baseline to
implement STARS deployments at all 11 TRACONs. However, if FAA receives its
budget request for fiscal year 2015 for STARS deployments at the 11 TRACONs, the
Agency will exceed its baseline by $19 million. Moreover, these funds will only
support STARS deployment activities through the fifth site.

FAA acknowledged that identifying, stabilizing, and validating STARS requirements
has been problematic. According to FAA, it is revisiting its current requirements
management process and establishing a mechanism to inform stakeholders of the
impact of new requirements on STARS’s costs and schedule. FAA initiated a process
with users at several key sites to identify site-specific issues that will require
additional work. In addition, FAA is facilitating workshops with subject matter
experts to validate STARS requirements, develop an updated software estimate, and
create a viable deployment schedule. However, FAA states that until it completes this
process, it is unclear how many further software updates are needed at DFW
TRACON or at any other site.

FAA DID NOT PROVIDE SITE-SPECIFIC TRAINING WHEN CERTIFYING
TECHNICAL SPECIALISTS AT DFW TRACON
Prior to deploying new systems, FAA policy requires sufficient training and
certification of all technical operations specialists, including those working on
STARS, to perform maintenance activities. Although FAA conducted inaugural
training 4 for STARS technical operations specialists, 5 one of DFW TRACON’s
technical specialists questioned whether the training was sufficient to certify
technicians on how to support and maintain the system. The training and specialist
certification were important steps in achieving IOC at the DFW TRACON. Six days
after FAA granted certification authority to the technical specialists, FAA declared
IOC at DFW TRACON.




4
  The inaugural training was conducted between September and November 2012 at the FAA Academy in Oklahoma City,
OK.
5
  On March 28, 2013, FAA certified STARS specialists at DFW TRACON and took over system maintenance responsibility
from the STARS contractor.
                                                                                                                           5

In March 2013, a DFW TRACON employee filed a complaint through our and FAA’s
hotlines alleging that FAA had certified specialists on the installed STARS system
without providing:

• a complete set of top-down drawings that show all external connections and
  pathways for external services to any of the three STARS systems, or

• site-specific “familiarization” training on these external connections and
  pathways.

In response, FAA stated that the training provided to specialists at the FAA Academy
was successful based on positive feedback from a majority of training participants—
in this case, seven of eight. FAA also stated that the Agency provided these specialists
with supplemental STARS training onsite at DFW TRACON. According to the
complainant’s supervisor, FAA’s training and subsequent certification of specialists
complied with requirements outlined in FAA Order 3000.57. 6

However, FAA’s training did not include a site familiarization package, which would
have identified all the site-specific details for implementing STARS at DFW
TRACON. 7 According to the STARS supervisor, site familiarization training is not a
formal procedure for certification, and no written site familiarization package is
required. Regardless, the complainant noted that site familiarization training is
important because DFW TRACON has unique characteristics that will impact the use
of the STARS system to manage air traffic. Without a site familiarization package, it
would be difficult for specialists to know how to maintain, troubleshoot, repair, and
restore the system after failures. For example, the complainant stated that two
specialists did not know how the DFW TRACON STARS system was tied to two
remote air traffic control towers.

According to the FAA Order 3000.57, the first-level manager must endorse a
technical specialist for certification authority after determining site familiarity and
capability to perform work practices. Work practices include knowledge of facility
reference data (including facility drawings). Given the wording of the order, the
unstable STARS requirements at DFW TRACON, and the complainant concerns, a
site familiarization package would promote a solid understanding of unique site
characteristics and benefit the technical specialists who support and maintain the
STARS system.

                                                         ---------


6
  FAA Order 3000.57 “Air Traffic Organization Training and Personnel Certification,” July 16, 2009. The requirements
cited in this order include theory training at the FAA Academy, a demonstration of proficiency, endorsement by a first-level
supervisor, and review by a second-level supervisor.
7
  These details include all the external connections and pathways to the installed STARS systems at the site.
                                                                                   6

We believe that your prompt attention to eliminating the risks related to unstable
requirements and specialist certification would help expedite FAA’s efforts to
modernize air traffic control automation systems and rein in STARS’s escalating
costs. This management advisory will be posted on our Web site (www.oig.dot.gov).

We discussed these issues with FAA’s Deputy Director of Air Traffic Systems and
officials responsible for managing the STARS program. Thank you for your attention
to these important issues. If you have any questions concerning this advisory, please
feel free to contact me at (202) 366-0500 or Kevin Dorsey, Program Director, at (202)
366-1518.

                                         #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    DOT Audit Liaison, M-1
    DOT Audit Liaison, AAE-100
